HHS/OIG-Audit--"Audit of California Department of Health Services
Recovery of Medicaid Third Party Liability Payments for the Period July 1, 1988
Through June 30, 1992, (A-09-92-00095)"
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Audit of California Department of Health Services Recovery of Medicaid
Third Party Liability Payments for the Period July 1, 1988 Through June 30,
1992," (A-09-92-00095)
November 9, 1993
Complete
Text of Report is available in PDF format (1.7 MB). Copies can also be
obtained by contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This final audit report points out that the State agency did not give the
Federal Government full financial credit for casualty third party liability
(TPL) recoveries. State laws allowed recipients to keep, in part, settlement
and award amounts that Federal laws require be used to reimburse Medicaid for
medical expenses paid on behalf of the recipients. We recommended a financial
adjustment for $7.6 million. We also recommended that the State agency establish
procedures to ensure that the Federal Government is given full credit for TPL
settlements and awards in accordance with Federal requirements.